HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Illinois and Indiana for July 1,
2005, Through June 30, 2006 - Illinois Department of Healthcare and Family
Services," (A-05-06-00069)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in Illinois and Indiana
for July 1, 2005, Through June 30, 2006 - Illinois Department of Healthcare and
Family Services," (A-05-06-00069)
January 17, 2008
Complete
Text of Report is available in PDF format (2.17 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the Illinois Department of
Healthcare and Family Services (the State agency) made
payments on behalf of beneficiaries who should not have been Medicaid-eligible
due to their eligibility in Indiana.  For the period July 1, 2005, through June
30, 2006, we estimate that the State agency paid $408,841 ($204,420 Federal
share) for Medicaid services provided to beneficiaries who should not have been
eligible due to their Medicaid eligibility in Indiana.  The Medicaid payments
were made on behalf of these beneficiaries because the State agency and
Indianas Medicaid agency did not share all available Medicaid eligibility
information.
We recommended that the State agency work with the Indiana
Medicaid agency to share available Medicaid eligibility information for use in
(1) determining accurate beneficiary eligibility status and (2) reducing the
amount of payments, estimated to be $408,841 ($204,420 Federal share), made on
behalf of beneficiaries residing in Indiana.  The State agency agreed with the
recommendations.